<html>
<title> - HEARING ON THE NOMINATION OF GARY GUZY TO BE DEPUTY DIRECTOR OF THE OFFICE OF ENVIRONMENTAL QUALITY</title>
<body><pre>[Senate Hearing 111-1211]
[From the U.S. Government Publishing Office]





                                                       S. Hrg. 111-1211

  HEARING ON THE NOMINATION OF GARY GUZY TO BE DEPUTY DIRECTOR OF THE 
                    OFFICE OF ENVIRONMENTAL QUALITY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 4, 2009

                               __________

  Printed for the use of the Committee on Environment and Public Works



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________
                               
                            U.S. GOVERNMENT PUBLISHING OFFICE 

99-884 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                           
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             AUGUST 4, 2009
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     2
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     4
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     5
Menendez, Hon. Robert, U.S. Senator from the State of New Jersey.     6
Cardin, Hon. Benjamin L., U.S. Senator from the State of 
  Maryland, prepared statement...................................    31

                                WITNESS

Guzy, Gary, nominated to be Deputy Director, Office of 
  Environmental Quality..........................................     7
    Prepared statement...........................................    10
    Responses to additional questions from:
        Senator Boxer............................................    13
        Senator Cardin...........................................    15
        Senator Inhofe...........................................    17

                          ADDITIONAL MATERIAL

Letter to Senator Boxer from Nancy Sutley, Chair, Council on 
  Environmental Quality, et al., May 20, 2009....................    33
Letter to Robert Sussman, Senior Policy Advisor, U.S. 
  Environmental Protection Agency, from the National Mining 
  Association, July 30, 2009.....................................    37
 
  HEARING ON THE NOMINATION OF GARY GUZY TO BE DEPUTY DIRECTOR OF THE 
                    OFFICE OF ENVIRONMENTAL QUALITY

                              ----------                              


                        TUESDAY, AUGUST 4, 2009

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the full committee) presiding.
    Present: Senators Boxer, Inhofe, Lautenberg, and Barrasso.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. The committee will come to order.
    Because we have two votes at 10:30, it is our wish to move 
through this pretty quickly. I know we are having Senator 
Lautenberg and Senator Menendez here. Of course, Senator 
Lautenberg will speak from up here on the podium. Senator 
Menendez is on his way.
    So why do we not start with opening statements? I am asking 
Mr. Guzy if he could take his chair, and when Senator 
Lautenberg speaks we are going to give him a little extra time. 
He will do his opening statement and his introduction.
    I am so pleased to convene this hearing on the nomination 
of Mr. Gary Guzy to be Deputy Director of the White House 
Office of Environmental Quality. Mr. Guzy brings with him 25 
years of legal experience to this important White House Office.
    He has worked in the private sector, academia and 
government on a wide variety of environmental issues. His 
distinguished public service career has included positions in 
the Environmental Division in the U.S. Department of Justice as 
Deputy General Counsel, General Counsel of the U.S. 
Environmental Protection Agency, and as Counselor to the EPA 
Administrator during the Clinton administration.
    Since 2001, he has worked with a wide variety of 
governmental and non-governmental actors, including Georgetown 
University Law Center, the Environmental Law Institute and in 
private legal practice.
    If Mr. Guzy is confirmed in this position, he will serve as 
Chief Deputy to the Chair of CEQ, Nancy Sutley, in support of 
the Council's mission to ''promote the improvement of 
environmental quality.''
    CEQ brings together different arms of the Administration 
and agencies across the Federal Government to build strong 
coordinated environmental policies that protect America's 
communities from environmental threats.
    Clean energy policies that create jobs, reduce our 
dependence on foreign oil, and address the carbon pollution 
that causes global warming are front and center today. In 
addition, CEQ must continue to help facilitate efforts to 
improve drinking water, strengthen clean air safeguards, 
improve policies to protect our children and our families from 
toxic chemicals, and ensure scientific integrity and 
transparency.
    I am confident that President Obama, Nancy Sutley and the 
Nation will be well served by your experience and your 
demonstrated commitment to these goals.
    I look forward to you testimony today.
    Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman.
    I will shorten mine also and put the entire opening 
statement in the record.
    I agree with comments made by the Chairman here, Mr. Guzy. 
I enjoyed our visit. You have an excellent background for such 
a function.
    I must say you have a difficult job ahead of you, not the 
least because Carol Browner, the White House energy and climate 
czar, appears to be coordinating environmental policy. Of 
course, we in the Senate have little idea of how her office 
functions because that is the whole idea of czars. I do not 
always agree with Senator Byrd, but I do agree with his 
statement when he talked about the czars are not accountable 
for their actions to the Congress, to the Cabinet officials, 
and to virtually anyone but the President.
    These czars are inherently opposed to the President's 
commitment for openness, transparency; and we are hoping that 
you will be able to work, somehow, in that area to help us with 
the transparency concern that we have.
    NEPA, of course, is the bedrock environmental statute which 
requires Federal agencies to consider how their actions could 
significantly impact the environment. Mr. Guzy, the previous 
Administration attempted to improve NEPA implementation, but 
the improvements were largely cosmetic due in no small part to 
the inertia of CEQ.
    I hope that you will commit to putting NEPA back into 
balance. In other words, NEPA should achieve environmental 
goals without unnecessarily obstructing economic and energy 
development.
    Projects across the Nation are already in limbo due to red 
tape and litigation based on environmental regulations, from 
delays in building coal power plants in Jamestown, New York, 
that would use the cutting edge carbon capture system of 
cancellation to construction on a coal-fired plant in Morgan 
County, Colorado. These are some of the things that we are 
hoping you would be able to help us to expedite.
    You know, both the Chairman and I have an interest in 
developing our effort on infrastructure, and we want to have 
you--I would like to have you do your job as one who is trying 
to help us to do that very thing, to reduce the obstacles.
    My whole initial reason when I first ran for office many 
years ago, I was a veteran developer, and I told you this story 
in my office about the time that I had to go to 26 governmental 
agencies to get a dock permit for a condo development I was 
making. So I think what we need to be doing is going in the 
other direction, getting these things done. And we will be 
looking for you to help us do that.
    The last thing, as I always mention to the appointees, and 
I am sure that this will be the case, as I mentioned to you in 
my office, we want to make sure that any inquiries that we have 
from this side, the minority side of the aisle, you will treat 
the same as though they were coming from the majority.
    Thank you.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    We are here today to consider the nomination of Gary Guzy 
to be Deputy Director of the White House Office of 
Environmental Quality.
    The Office, also known as the Council on Environmental 
Quality, leads the Administration's effort to formulate and 
execute environmental policy across the Federal Government. CEQ 
serves a critical role in shaping environmental policy within 
the executive branch. Mr. Guzy, I enjoyed speaking with you at 
our recent meeting. I congratulate you on your nomination and 
look forward to working with you.
    I must say that you have a difficult job ahead of you, not 
least because Carol Browner, the White House Energy and Climate 
Change Czar, appears to be coordinating environmental policy 
out of her office. Of course, we in the Senate have little idea 
as to how her office functions or what contributions it makes 
to the interagency policy process. As Senator Byrd stated in a 
letter to President Obama in February, these White House czars 
``are not accountable for their actions to the Congress, to 
Cabinet officials, and to virtually anyone but the President.''
    These czars are inherently opposed to the President's 
commitment to openness and transparency in the executive 
branch. This no doubt makes our oversight role more 
complicated. Nonetheless, Mr. Guzy, this means you will be on 
the front line as one of the top officials accountable to this 
committee.
    And for better or for worse, you will be accountable for a 
number of significant issues affecting every corner of the 
economy. One of them, unique to CEQ, is the National 
Environmental Policy Act (NEPA).
    NEPA, of course, is a bedrock environmental statute which 
requires Federal agencies to consider how their actions could 
significantly impact the environment. Mr. Guzy, the previous 
Administration attempted to improve NEPA implementation--but 
the improvements were largely cosmetic due in no small measure 
to inertia at CEQ. I hope you will commit to putting NEPA back 
into balance. In other words, NEPA should achieve environmental 
goals without unnecessarily obstructing economic development.
    Projects across the Nation are already in limbo due to 
delays and litigation from existing environmental regulations--
including setbacks in building a coal power plant in Jamestown, 
New York, that would use a cutting edge carbon capture system; 
and the cancellation of construction on a coal-fired power 
plant in Morgan County, Colorado, due to ``steep regulatory 
obstacles.''
    It also seems clear that the tangled web of climate change 
has enveloped NEPA. Activists are forcing Federal agencies to 
address the global warming implications of their actions. Among 
other things, this could seriously curtail the Nation's 
domestic energy development. Ironically, NEPA is even being 
used to block renewable energy projects.
    I understand CEQ is drafting guidance on NEPA and climate 
change. CEQ must make clear that climate change is not required 
for NEPA purposes. As with the Endangered Species Act, NEPA 
should not be used as a back door tactic to regulate greenhouse 
gases.
    Mr. Guzy, as I noted, you will face a number of challenges 
in this position. And although we will not agree on how to 
address all of those challenges, I hope we can work together 
with mutual understanding of our respective positions.
    Finally, when this committee, including the minority, seeks 
information and makes inquiries, I hope you will respond to 
them in a timely fashion and with the openness and transparency 
you have pledged to uphold.
    I look forward to your confirmation and to working with you 
on issues of great importance to the American people.

    Senator Boxer. Thank you, Senator Inhofe.
    Senator Lautenberg.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you, Madam Chairman, for 
introducing Gary Guzy formally to the process.
    We think he is an outstanding candidate with a 
distinguished career in environmental leadership, whether 
government, academia or business, on all fronts. He has done 
wonders at each of his jobs by making sure that they are 
accurately and deftly performed.
    He did something else here today. It is almost unfair, 
because this is from my home town of Patterson, New Jersey, and 
in it there is a theater mention that we knew about, an act 
where these people would get up on a 300-foot pole above the 
sidewalk to attract people to the theater.
    Now, off the record, was it your grandfather who owned 
this?
    Mr. Guzy. Yes.
    Senator Lautenberg. Oh, OK.
    Senator Inhofe. Now how do you get that off the record?
    [Laughter.]
    Senator Lautenberg. How do I get it off the record? Very 
easily, because I want the public to know that this was a gushy 
statement of sentiment that crept into this hard-nosed 
political life that we endure.
    So, it is a real pleasure for me, Gary Guzy, to meet you 
here and to support your nomination from the President to be 
the Deputy Director of the Office of Environmental Quality. I 
know that you are a highly committed and talented public 
servant, and if confirmed I believe that he is certainly ready 
to tackle the challenges that lie ahead.
    Those of us who were born in New Jersey can leave the 
State, but the State can never leave us. He was born in Newark, 
which was part of the--kind of orbit, of Patterson, Newark and 
others. I do not want this to devolve into a study of New 
Jersey and its past, but after a bright high school career, he 
went to Cornell and then returned to our State and to a field 
that we hold in high regard in the State of New Jersey, and 
that is environmental protection.
    Mr. Guzy came to Government in a position at the Department 
of Justice where specialization in wetlands, water quality and 
hazardous waste issues was his particulate interest. He then, 
as Chairman Boxer mentioned, moved to the EPA to serve as 
Deputy General Counsel and help managed the agency's legal 
staff.
    During the Clinton administration, the promotion to General 
Counsel at EPA took place, and in that position he made it a 
priority to focus on children's health and control air 
pollution, as well as to help restore the Florida Everglades, 
which is a project that almost everyone supports.
    I am confident that you are going to be successful in this 
new position, assuming that our friends here and on the floor 
of the Senate will support you.
    At this critical time in the climate debate, we need 
someone with the strength Mr. Guzy brings to help run the 
Office of Environmental Quality. We need Government to be 
active and innovative in finding solutions to the challenges 
that we face.
    In June, the House of Representatives passed a landmark 
bill that would fundamentally change how America uses energy 
and fights global warming. The world is now expecting the U.S. 
Senate to pass a bill that moves our country away from dirty, 
unstable sources of energy and toward clean, sustainable and 
efficient ones.
    As Congress works toward a legislative solution, we need 
the Administration to work with us. We need a strong, 
aggressive Office of Environmental Equality to build support 
for a clean energy bill.
    Clean energy can create jobs, as it has in New Jersey. 
There are now more than 2,000 clean energy companies that call 
New Jersey home, and they employ more than 25,000 people. And 
clean energy can reduce air pollution that causes asthma and is 
thought to cause cancer as well. And clean energy can slow the 
effects of global warming so that we leave the next generation 
a healthier planet than the one that this generation inherited.
    We also need Mr. Guzy and the Administration to take strong 
action on hazardous chemicals which are cancer causing, cause 
birth defects and raise health care costs across the country.
    And we need to clean up Superfund sites more quickly so 
that communities can rebuild and recover their health. New 
Jersey has more Superfund sites than any State in the Nation. 
So, this is an important priority for our State's residents.
    Overcoming this list of challenges will not be an easy 
task. But our children and our grandchildren are depending on 
us to accomplish them. I have no doubt that, if confirmed, Mr. 
Guzy will be a strong partner in this effort.
    Thank you again, Madam Chairman, for holding this hearing.
    Senator Boxer. Thank you, Senator Lautenberg.
    We have been joined by Senator Menendez. Senator, after we 
hear from Senator Barrasso, we will turn to you for your 
comments.
    Senator Barrasso.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Madam Chairman.
    Thank you, Mr. Guzy, for taking the time this morning to 
come and visit with me and have a chance to visit about issues. 
I want to also congratulate you, congratulate your family and 
thank you all for the willingness to serve.
    Madam Chairman, Wyoming is very interested in a number of 
environmental issues in which the nominee today will have a 
significant impact. We had the chance to discuss some of those. 
In Wyoming, the frontier spirit of smaller government and 
individual liberty are still sacred traditions. And the reason, 
of course, is, as we have discussed, half of the land in 
Wyoming is run by the Federal Government.
    The Federal Government reintroduced major predators into 
our landscape. The Federal Government manages our dams, our 
lakes, our reservoirs, they control irrigation and grazing for 
agriculture production, and we depend on Federal managers to 
access lands for hunting and fishing.
    Living with this heavy Federal involvement in Wyoming, we 
fight every day, as we discussed, to fight red tape and get 
work done. Bureaucratic delays impact everyday life in Wyoming. 
All actions of the Federal Government are subject to 
environmental law. And these laws are entitled to provide for 
measured, thoughtful decisionmaking. They allow public 
involvement in our Government, but they are not built for 
speed.
    Let me tell you from Wyoming experience, NEPA reviews take 
years. Not weeks, not months, but years. And you and I had a 
chance to visit about the original NEPA laws as written, when 
Senator Scoop Jackson was chairing the committee, and where we 
were then and where we are now.
    Even after NEPA documentation is finalized by the Feds, 
activist groups can file appeals and litigation and hold up 
projects for many more years. The NEPA process is broken, and 
it needs to be fixed.
    I tried to work with my colleagues, including the 
distinguished Chairman of this committee, to address these 
concerns. I worked with the Chairman to attach language to the 
President's stimulus package to do just that. In addition, 
however, I maintain that we need to streamline NEPA to protect 
our communities, to create jobs and to make America energy 
independent.
    We cannot tie America's hands behind its back with onerous 
red tape if we are going to achieve energy independence and 
compete with China and India. Smart energy development of all 
of our domestic energy resources must occur if we are going to 
compete to be energy secure.
    It is my hope that the nominee before us today will work 
with us to achieve these reforms of NEPA that really do need to 
occur.
    Thank you, Madam Chairman. I look forward to the testimony.
    Senator Boxer. Thank you.
    Senator Menendez.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Menendez. Thank you, Madam Chairman, and Ranking 
Member and the distinguished members of the committee.
    I am pleased to join my colleague from New Jersey in 
introducing Gary Guzy to the committee for his position that he 
is nominated for as the Deputy Director of the White House 
Council on Environmental Quality.
    I am proud to say he is the latest in a line of 
environmental leaders hailing from the Garden State, punctuated 
quite nicely by Administrator Lisa Jackson whose leadership of 
the EPA, I think, is showing us that we can protect our 
precious land, water and air resources.
    Mr. Guzy brings with him true expertise on many different 
levels that are important to the Nation and the committee on 
climate change, among others, issues gained from having 
acquired a wealth of experience that spans the public, the 
private, the non-profit and the academic sectors. That is a 
very unique confluence of experiences.
    His most recent experience in Government was at the EPA as 
General Counsel during which time he worked with the 
Administrator to accomplish important air pollution and 
tailpipe emissions protections, fostered Everglades' 
protection, and designed regulatory approaches to protect 
children.
    He has been deeply involved in energy and environmental 
issues in the private sector. He currently serves as Vice 
President and General Counsel of APX, the leading 
infrastructure provider for environmental and energy markets 
providing registry tracking systems for each of the world's 
credible voluntary carbon standards.
    Prior to that, he was the Global Practice Leader for 
Climate Risk and Sustainability at Marsh, where he positioned 
the world's leading insurance broker and strategic risk advisor 
at the forefront of the industry in dealing with the climate 
risks.
    So in all of those ways, as well as a member on advisory 
boards to the Environmental Law Institute, the Urban Land 
Institute, the Greater Washington Board of Trades, Green 
Committee, and teaching the first-ever course on climate law 
change at GW's Law Center as Adjunct Professor of Environmental 
Law, we have someone who has an extraordinary breadth and scope 
of experiences in the private sector, in the Government sector, 
in the non-profit sector.
    I think those all speak volumes of a tremendous nominee, 
and I urge the committee's adoption of his nomination.
    Thank you for the opportunity.
    Senator Boxer. Senator Menendez, thank you. I know you have 
a hectic schedule.
    Before you leave, I just want to say, Mr. Guzy, you should 
be, and I am sure you are, very pleased that you have both of 
your great Senators here today. It is a hectic time for us all 
because it is the last week, and I know everybody has 
obligations. But you should feel very good.
    And thank you, Senator Menendez, so much, for taking time 
to be here.
    Now, Mr. Guzy, it is your opportunity to speak to us, and 
we hope that you will introduce your family as well. We welcome 
you again.

STATEMENT OF GARY GUZY, NOMINATED TO BE DEPUTY DIRECTOR, OFFICE 
                    OF ENVIRONMENTAL QUALITY

    Mr. Guzy. Good morning. Thank you, Madam Chairman, Ranking 
Member Inhofe and members of the committee.
    I am deeply appreciative to you for holding this hearing, 
for the members of the committee for their thoughtful 
consideration, to Senator Lautenberg and Senator Menendez for 
those gracious introductions, to Senators Inhofe and Barrasso 
for the opportunity to take time out of their busy schedules to 
meet.
    I am delighted to be joined today by members of my family 
who provide constant support for my work. I am joined by my 
wife, Sharon Sprague, who you should know for 20 years has been 
a dedicated public servant in her own right as an Assistant 
U.S. Attorney in the District of Columbia; by my two wonderful 
and inspiring children, Zoe and Zander; and by my mother, Rita 
Guzy, who traveled from Boca Raton, Florida, to be with us 
today.
    Senator Boxer. Welcome, everybody.
    Mr. Guzy. Madam Chairman and members of the committee, I am 
deeply honored, grateful and humbled by President Obama's 
nomination to serve as the Deputy Director of the Office of 
Environmental Quality. As you well know, Congress established 
the Office in 1970 to provide essential support to the Chair of 
the Council on Environment Quality.
    CEQ has a distinguished 40-year history of service to our 
Nation, advising the President in the development of 
environmental policies and legislation, identifying, assessing 
and reporting on trends in environmental quality and 
recommending appropriate responses, overseeing Federal 
implementation of the environmental impact assessment process 
under NEPA, and coordinating and, at times, even refereeing, 
Federal environmental efforts.
    These tasks are ever more important given the urgency and 
cost cutting nature of climate change and other environmental 
challenges our Nation faces. That is why as our President seeks 
to reinvigorate our Nation's commitment to environmental, 
public health and natural resources protection, it makes sense 
to fill the position of Deputy Director and why five former 
Chairs of CEQ, from both parties, have called upon him to do 
so.
    I have devoted my career to understanding and resolving 
such concerns and have had the benefit of broad experience in 
business, government and academia. I currently serve as the 
General Counsel of APX, a relatively small entrepreneurial 
green venture hailing from Hoboken, New Jersey, that provides 
global registry oversight systems for voluntary carbon 
standards and renewable energy credits.
    I previously served as the Global Practice Leader for 
Climate Risk and Sustainability at Marsh, a Fortune 200 company 
that is the world's leading insurance broker and strategic risk 
advisor. There, I helped businesses around the world understand 
the climate risks they face across their operations and the 
tools they have for addressing them.
    I also am an Adjunct Professor of Environmental Law at 
Georgetown University Law Center, where I devised and taught 
the school's first courses on climate change law.
    In Government, I was privileged to be appointed by 
President Clinton and confirmed by the Senate as General 
Counsel of the U.S. Environmental Protection Agency where I 
served from 1998 until 2001, as well as to have served before 
then as Counsel to the Administrator and as Deputy General 
Counsel at EPA.
    In those several roles, I assisted in resolving issues as 
diverse as enhanced air quality, enhanced tailpipe emission 
standards, the protection of children's health, and addressing 
threats to key ecosystems.
    Before that, I was a Senior Attorney at the U.S. Department 
of Justice's Environment Division, handling major environmental 
litigation that spanned from the Everglades to Alaska.
    As I go about my work, I think back to my early childhood 
living in Newark, New Jersey, with my mother, a single parent 
then and a dedicated public school teacher. And from that 
vantage, I recognize that a caring and open Government can make 
a difference in the lives of ordinary citizens. From the child 
with asthma to the coastal communities facing enhanced risks, 
Government can provide essential hope and essential protection.
    I think about the many days that I have been privileged to 
spend on a bicycle traveling across America's back roads and 
blue highways, and I realize that the legendary natural bounty 
that has defined our Nation merits careful stewardship.
    I think back to my days on the job as a young law clerk for 
Judge Elbert Tuttle, former Chief of the U.S. Court of Appeals 
in Atlanta. Despite his then 30 years on the bench, I was 
struck that he was vitally interested in my relatively inexpert 
views.
    From him I learned that keeping an open mind and being 
attentive to absolute fairness of process are essential to the 
ultimate success of our work and to improving the quality of 
the Government's analysis and decisions. Also critical is 
maintaining the highest of ethical standards. And these are 
values that, if confirmed, I will strive to take to my job 
every day and to continue to instill in CEQ staff.
    My substantive focus if confirmed as Deputy Director will 
be to work alongside Chair Sutley to ensure that there is a 
strong science and legal basis for our environmental policy, 
move the Nation to greater reliance on clean energy and 
increase energy security, combat global warming while growing 
the green economy, provide increased protection for public 
health and the environment, especially in vulnerable 
communities, and protect and restore our great ecosystems.
    Much as changed in the 40 years since CEQ's founding. Gone 
should be the myth that protecting our environment, public 
health and natural resources comes at the expense of a 
prosperous economy. Rather, these are critical to our 
continuing prosperity, and they provide enormous opportunities 
to revitalize our economy.
    Gone should be the notion that Government and the private 
sector must be at loggerheads on the environment. Rather, 
enhanced cooperation between Government, affected communities 
and the private sector, tempered by appropriate levels of 
rigorous oversight, is critical to spurring the innovation that 
will allow our Nation to thrive.
    And gone should be the notion that the environmental 
pendulum must keep swinging from lack of protection to 
seemingly onerous prescriptive regulation, with no common 
ground for action in between.
    With this perspective, I am hopeful that we can find 
enduring, productive and sustainable solutions to the great 
challenges that we face. If confirmed, I look forward to a 
close and cooperative relationship with the committee and its 
staff in carrying out this vital work.
    I thank you for your consideration, and I would be very 
pleased to answer any questions.
    [The prepared statement of Mr. Guzy follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Senator Boxer. Thank you so much, Mr. Guzy.
    I would just like to ask you some required questions. Then 
I will turn to my colleagues.
    Do you agree, if confirmed by the Senate, to appear before 
this committee or designated members of this committee, and 
other appropriate committees of the Congress, and provide 
information subject to appropriate and necessary security 
protection, with respect to your responsibilities as Deputy 
Director of the Office of Environmental Quality?
    Mr. Guzy. I do, Madam Chairman.
    Senator Boxer. Second, do you agree to ensure that 
testimony, briefings, documents and electronic and other forms 
of communication are provided to this committee and its staff 
and other appropriate committees, in a timely manner?
    Mr. Guzy. Yes, I do, Madam Chairman.
    Senator Boxer. And last, do you know of any matters which 
you may or may not have disclosed that might place you in any 
conflict of interest if you are confirmed?
    Mr. Guzy. I do not.
    Senator Boxer. Excellent.
    Senator Inhofe, go right ahead.
    Senator Inhofe. Thank you, Madam Chairman.
    I was going to start off with my streamlining of the NEPA 
process questions, but I have a feeling that Senator Barrasso 
is going to be asking about that, so I will get into two other 
things within this 5 minute period of time.
    One is on energy permitting, the regional multi-agency 
permit offices. A company now is seeking to develop an offshore 
lease. It has got to have an array of State and Federal 
permits. Remember I told you the example that, one of the 
reasons I ran in the first place was the permit problem I had 
out in the real world. And these have shown that off shore 
energy development can occur in an environmentally responsible 
manner as we have found out from our experience.
    Now, my concern is this. In some instances, over 30 permits 
from 30 different agencies are required to drill one 
exploratory well. Just one. That is just one pre-production 
well. The same is likely true of any energy project, I suspect. 
This is not a sustainable model. We have got to find a way to 
rationalize the process without short circuiting any of the 
safeguards.
    Now, in recent years, the Bureau of Land Management ran a 
successful pilot program to speed the permit delivery process 
by bringing all of the permitting agencies together in one 
single office, one stop shopping if you will.
    Would you support a regional permitting support office in 
Alaska? Alaska is an area where we have most of the problems, 
and if we could have a single permitting office there that 
would no more than anything else we could think of to expedite 
this process. What do you think about that?
    Mr. Guzy. Well, a few thoughts, Senator. First, the 
President and the Administration have committed to both 
transforming our economy to a new energy economy and to 
economic revitalization as among their highest priorities.
    The Council on Environmental Quality's very role is that of 
coordination among Federal agencies that have a hand or a stake 
in those efforts. While I am not familiar with that particular 
proposal or set of problems, I would be very pleased to work 
with you to look at it. And certainly the Council on 
Environmental Quality's efforts at coordination in spurring an 
economic recovery and our economic transformation will be 
absolutely critical.
    Senator Inhofe. Yes, but do you not think, this is the 
information age and we have got all of the electronics and the 
capabilities. The idea of having to go to 30 different 
governmental agencies, do you not find that to be more than 
just a little ridiculous?
    Mr. Guzy. Senator, again, I am not familiar with this 
particular circumstance. But I will say that, for example, with 
respect to various controversial permitting activities, one of 
the things that the Council on Environmental Quality has done 
in this Administration is to pull together all of the agencies 
that have a role so that there can be as much coordination and 
as much efficiency as possible.
    Senator Inhofe. The New York Times had the article that we 
have quoted from several times, and I am sure that you are 
familiar with it. They wrote that Mary Nichols, the head of the 
California Air Resources Board, and Carol Browner ''quietly 
orchestrated private discussions from the White House with auto 
industry officials in an effort to conceal information used to 
develop the fuel economy proposals. Nichols said that she and 
Browner put nothing in writing ever.''
    Is this consistent with the openness policy that our 
President has campaigned on? Is there anything that you would 
like to do to bring these things out into the daylight?
    Mr. Guzy. Senator, a few thoughts about that, if I may. One 
is that the President certainly is entitled to have advisors on 
high priority issues, and he has chosen to structure his White 
House in that fashion. I am not familiar with the operation of 
the White House and with that particular effort around cars to 
know precisely how that transpired or the accuracy of the 
reporting there.
    But I will say that, if confirmed, I will be accountable to 
this committee, and you can be assured that we will look to 
work in partnership with you and this committee as we put high 
priority on economic revitalization.
    Senator Inhofe. And that is what we really want, daylight 
and accountability.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you.
    Senator Lautenberg.
    Senator Lautenberg. Mr. Guzy, first of all I do want to say 
that I was pleased to see your family here, and your mother. My 
mother was widowed when she was 37 years old. I had already 
enlisted in the Army, and life was tough. But a strong mother 
always carries on, and the consequence of her dutiful 
management of your life apparently was the right thing to do, 
and we are pleased to see you here. Welcome.
    Global warming is one of the greatest environmental 
challenges that our planet has ever faced. Do you think that, 
why should Government approve projects that have to undergo 
review for their potential contribution to global warming 
before they are approved?
    Mr. Guzy. Senator, as part of the Council on Environmental 
Quality's responsibilities in implementing and interpreting the 
National Environmental Policy Act, I fully expect that we will 
look at and give careful consideration to the benefits of 
greater guidance to Federal agencies around both the effects on 
the Federal Government of climate change as that may unfold 
both now and in the future and the contribution that Government 
activities may make to global warming. Those are areas that 
certainly merit more consideration.
    Senator Lautenberg. One of the things that happen in this 
house of legislation is that sometimes we have to go to 100 
Senators to get improvement. And that is even more than 30 
agencies by a significant factor. We do it. It is arduous, but 
worth it.
    The one thing that I have done since I have been in the 
Senate is to use as a matrix for my thinking and my legislative 
pursuits--I look at pictures that I have of 10 grandchildren. 
The eldest is 15. He has asthma, and on bad days he has bad 
effects.
    And my friends here have heard me say this before. My 
daughter, when she takes him out for a sporting event, baseball 
or basketball or whatever else, the first thing she does, if it 
is away from home, is check and see where the nearest emergency 
facility is.
    This is more an encouragement than a question. And that is, 
always keep in mind your daughter and the other children for 
whom we have an enormous responsibility, and let that be the 
guide to your action. Do not let politics overcome science in 
selection of those who might be staffing your office.
    So, when I look at this job, it is so important. And I feel 
very comfortable that you are going to be there with your 
knowledge and your experience and your commitment to what is 
right, as I know about you.
    The Government Accountability Office recently placed our 
Nation's system for regulating potentially hazardous chemicals 
on its list of high risk areas. What priority will your office 
place on fixing our Nation's system for regulating chemicals?
    Mr. Guzy. Senator, I am generally familiar with reports and 
testimony of the Government Accountability Office on the Toxic 
Substances Control Act and the hearing that I think occurred in 
February in the House of Representative on those issues. And I 
am also familiar that Administrator Jackson has identified this 
as one of her priorities, and in particular concerns about the 
burdens and difficulties of obtaining and proving data and 
burdens of proof.
    I look forward to the opportunity, if confirmed, to work 
with her on these issues, to continue to give priority to 
children's environmental health, as you mentioned, and to carry 
on that work.
    Senator Lautenberg. Well, I close by saying that we are 
fortunate to have a candidate like you coming to this job. It 
is going to be more difficult than perhaps some of the tasks 
that you have had, but you are up to it, and we are pleased to 
have you here.
    Thank you very much, Madam Chairman.
    Senator Boxer. Thank you very much, Senator Lautenberg.
    Senator Barrasso, you will close this because we have a 
vote pending. So go right ahead and then we will vote. How many 
minutes left to vote? Seven minutes left to vote, so do your 5.
    Senator Barrasso. Thank you very much, Madam Chairman.
    In Southern Wyoming, in Colorado, having experienced bark 
beetle in our forests, I was there this past weekend; we have 
mountain ranges of standing dead trees that is literally a 
tinder box. The Forest Service is working on hazardous fuels 
reduction as best they can. But in order to complete the NEPA 
requirements of these projects, they can only process one 
watershed at a time, and these NEPA evaluations take about a 
year and a half each.
    So it seems to be a management gamble. We have no way to 
know where the fire is going to start, and it seems to us in 
Wyoming that NEPA is preventing large scale action to prevent 
the damage. Is this how the law ought to be serving our 
communities in the State of Wyoming and in the country?
    Mr. Guzy. Senator, I am not familiar with that particular 
circumstance, but would be happy to, if confirmed, look at 
that.
    But generally--the Council on Environmental Quality 
provided Congress yesterday with data on economic recovery 
environmental reviews. Generally, that showed an extraordinary 
amount of activity in a very short time, the successful 
resolution of approximately 80,000 environmental reviews, the 
completion of 90 percent of those reviews over a 3-month 
period.
    I think that represents the commitment that this 
Administration has to expeditious processing at the same time 
as it respects the environmental and public input concerns of 
those circumstances.
    I would also add that we look forward to working, if 
confirmed, at the Council on Environmental Quality on 
appropriate means for adaptation for planning for climate 
change so as to avoid those circumstances that would be 
unmanageable and manage those things that prove actually to be 
unavoidable. And certainly increasing wildfires across the West 
are an area of significant concern.
    Senator Barrasso. As you talk about the stimulus package, 
you know, unemployment has now reached 9.5 percent, and it is 
climbing. With that in mind, do you believe job creation, such 
as the clean energy sector which you talked about in your 
comments, should be weighed more heavily in making decisions 
under NEPA?
    Mr. Guzy. Senator, I do not have a particular view on that 
technical issue, but certainly the Administration is absolutely 
committed to job creation in this area. They have as an initial 
step brought forward $80 billion in investment in the clean 
energy area. There is a commitment to continue that and 
hopefully work with the Senate on passage of broader climate 
legislation that also will help to spur this industry.
    You know, you look at things like the testimony, I believe 
last week or the week before, your neighboring Governor, 
Governor Ritter, about the transformation that is occurring in 
the economy in Colorado that really promotes green jobs, wind 
power, basic manufacturing that helps promote renewable and 
clean energy.
    Senator Barrasso. How can NEPA be improved to address the 
concerns of people in the Rocky Mountain West who view the law 
as a tool by outside group to block economic development, the 
kind of development that is going to create well paying jobs 
and allow communities to survive and to thrive?
    Mr. Guzy. Senator, it is important that in CEQ's advice in 
working with Federal agencies, and if confirmed, that we strike 
an appropriate balance and a common sense approach.
    Oftentimes NEPA becomes the vehicle for raising the whole 
set of concerns that may be extraneous to the NEPA process. And 
I am certain that the more engagement there is between 
Government, business and effective groups on the front end of 
the process, the more I believe that benefits a speedy 
resolution on the back end of the process, and so that the NEPA 
process itself does not bear the burden of all of those other 
concerns. And that is something that I look forward to working 
with you on.
    Senator Barrasso. Well, that would be great. Do you believe 
NEPA has been abused in the past by outside groups?
    Mr. Guzy. Senator, I believe that is has had a heavy burden 
to bear, and that as a result, in certain circumstances, it has 
been slower than one might like, and litigation has played--and 
while playing an important role, it has played a role in 
slowing down some environmental reviews.
    Senator Barrasso. Thank you very much.
    Thank you, Madam Chairman.
    Senator Boxer. Let me just say on NEPA, we worked together 
to make sure, when the stimulus funding came, we were able to 
make sure that NEPA did not slow up the process.
    And so far, we have had some good, we have a report, 
actually, I would put it in the record, Senator, since this is 
something that we worked on together. Since June 30th, more 
than 70,000 NEPA reviews were completed, an increase of over 
30,000 since the last report. We will put this in, because we 
did want to make sure that NEPA was not used in a way that was 
not appropriate.
    I share that concern. I also believe it is hard to say you 
are for individual rights and community rights versus big 
government or big business if you do not understand that. That 
is why NEPA was written in the first place, to give individuals 
and communities the say-so so that Federal Government could not 
come in, or some special interest, and ride roughshod over your 
towns or mine.
    However, there is no question, I think, that we can do 
better with NEPA. And we could work together on that. I think 
where we could part at some future point is whether we believe 
those community groups and individuals should have rights at 
all. But so far, I think we have been able to work together on 
this.
    So, we look forward to working with you, Mr. Guzy. I am so 
grateful to you for taking on this challenge. And to your 
family. I am glad your kids are here, your mom, your wife. It 
is a great moment for you. I will be very proud to support you.
    We stand adjourned.
    [Whereupon, at 10:40 a.m. the full committee was 
adjourned.]
    [The referenced report was not received at time of print.]
    [An additional statement submitted for the record follows:]
                 Statement of Hon. Benjamin L. Cardin, 
                U.S. Senator from the State of Maryland
    Chairman Boxer, thank you for holding this hearing, and Mr. Guzy, 
welcome to our committee; it is a pleasure to have you here before us 
today, and I look forward to hearing your testimony and answers to our 
questions.
    Gary Guzy's nomination to the President's Council on Environmental 
Quality demonstrates President Obama's commitment to developing 
environmental policies using careful science and receiving the best 
advice from leading experts in the field. The breadth of experience and 
expertise that Mr. Guzy will bring to CEQ will serve the Council well 
as it helps guide the Administration's decisionmaking on environmental 
policies.
                     chesapeake bay and clean water
    The health and productivity of the Chesapeake Bay are a top 
priority of mine. It is a major economic driver for Maryland and the 
surrounding States within the watershed. But the Bay's value is 
dependent on the water quality of the watershed. Mr. Guzy's expert 
legal analysis and testimony before Congress on the implications of the 
Supreme Court's decision in SWANCC v. United States Army Corps of 
Engineers in 2002 outlined the enforcement and regulatory mess that the 
SWANCC decision created for regulators trying to apply the Clean Water 
Act throughout the country. Fortunately Congress and this committee are 
working to apply Mr. Guzy's recommendations 7 years after he delivered 
testimony on the SWANCC decision.
                           mountaintop mining
    Protecting clean water and public health is at the heart of making 
sure that the Clean Water Act is dutifully applied to Appalachia's 
dangerous and destructive mountaintop removal coal mining operations. 
The valley fills associated with these operations have destroyed more 
than a thousand stream miles with mining waste. Numerous studies have 
shown that when impacts to the natural landscape of a watershed exceed 
10 percent, water quality and the biodiversity of aquatic life in all 
waters of the watershed decline. \1\ In Southern West Virginia there 
are watersheds with more than 25 percent of the land impacted by 
surface mines' operations.
---------------------------------------------------------------------------
    \1\ Yuan L.L. & Nortno S.S. Comparing responses of 
macroinvertebrate metrics to increasing stress (2003).
     Allan J.D. Landscapes and riverscapes: the influence of land use 
on stream ecosystems (2004).
     Morgan R.P. & Cushman S.F. Urbanization effects on stream fish 
assemblages in Maryland (2005).
---------------------------------------------------------------------------
    What's more, the permitting process for these operations does not 
account for the cumulative effect of multiple mine operations on 
downstream water quality.
    Regulatory responsibility for mountaintop mining regulation rests 
with the Office of Surface Mining (Department of the Interior), the EPA 
and the Army Corps of Engineers. I urge you to ensure that CEQ 
facilitates the development of congruent environmental policy when 
agencies' jurisdictions overlap.
                             climate change
    No policy will require greater administrative interagency 
coordination and executive leadership than the clean energy legislation 
that Congress will send to the President's desk for execution. 
Department leaders from EPA, Department of Energy, Department of 
Transportation, Department of Agriculture and Department of the 
Interior, and former military leaders have all testified before this 
committee on climate change and the policy solutions that we are 
considering.
    In many ways, the actions President Obama takes on climate change 
and clean energy will greatly shape his legacy and the future of the 
American economy. CEQ will play a critical role in coordinating the 
Administration's multiple layers of regulatory guidelines to make sure 
that the country's transition to a clean energy economy is a smooth 
one.
                               conclusion
    Mr. Guzy has excellent experience as a legal scholar, environmental 
regulator and in the private sector in emerging clean energy markets 
that has prepared him well for the position that he has been nominated 
to. I hope he gets the strong support of this committee and the full 
Senate.

    [Additional material submitted for the record follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
     
                                 [all]
</pre></body></html>
